HHS/OIG, Audit -"Review of Medicare Outlier Payments Made to Orthopaedic Hospital for the Period August 1, 2000 Through December 31, 2001,"(A-09-03-00031)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Outlier Payments Made to Orthopaedic Hospital for
the Period August 1, 2000 Through December 31, 2001," (A-09-03-00031)
May 29, 2003
Complete
Text of Report is available in PDF format (2.72 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Orthopaedic Hospitals
(the hospitals) outpatient claims with outlier payments were billed to Medicare
in accordance with applicable laws and regulations.  Based on our review
of 35 judgmentally selected outpatient prospective payment system (OPPS) claims,
we found the hospital incorrectly billed Medicare on 7 claims.  Due to
the billing errors, the hospital was underpaid a net amount of $15,240.  The
billing errors occurred because the hospital did not correctly implement the
OPPS requirement concerning the number of units to use when billing Medicare
for drugs.  We recommended that the hospital strengthen its billing procedures
and resubmit the claims found to be in error to the fiscal intermediary for
adjustments. The hospital concurred with our findings and recommendations.